HHS/OIG-Audit--"Financial Audit of the National Institutes of Health's Service and Supply Fund and Management Fund for Fiscal Year 1993, (A-17-93-00037)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Financial Audit of the National Institutes of Health's Service and Supply
Fund and Management Fund for Fiscal Year 1993," (A-17-93-00037)
August 8, 1994
Complete Text of Report is available in PDF format
(10 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report, prepared by Price Waterhouse (PW), Certified Public
Accountants, points out that PW could not express an opinion on the subject
Funds' financial statements. The PW disclaimers of opinion resulted because
(1) PW was unable to satisfy themselves as to the reliability of reported account
balances for inventory, property and equipment, accounts payable, leased computer
equipment, and associated revenue and expenditure accounts and (2) the necessary
documentation supporting expenditures in both Funds, and data supporting revenue
in the Management Fund, were not available for examination. These problems are
primarily attributable to significant weaknesses in internal controls identified
in prior audits that remain uncorrected.